One Logan Square
27th Floor
Philadelphia, PA 19103-6933
215.568.0300/facsimile

Robert A. Wiygul
Direct Dial: 215.496.7042
E-mail: rwiygul@hangley.com

January 22, 2021
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

Jim Bognet, et al. v. Kathy Boockvar, Secretary of Pennsylvania, et al., No. 20-740

Dear Mr. Harris:
I am writing on behalf of Kathy Boockvar, Secretary of the Commonwealth of
Pennsylvania, in the above-referenced case to request an extension of 31 days, to and including
Monday, March 15, 2021, for the filing of a brief in opposition to the petition for a writ of
certiorari. The brief in opposition is currently due on February 12, 2021. This is the first
extension Secretary Boockvar has sought.
This extension is requested because of the number of issues raised in the petition and the
press of other matters for which the attorneys preparing the brief in opposition are responsible.
Thank you very much for your time and assistance.
Very truly yours,

Robert A. Wiygul
cc: Counsel of Record for all parties

